                                            Closeout for M97080023
       On August 25, 1997, OIG received an allegation that a proposal' submitted by
    the PI (the subject) to NSF contained plagiarized text. It was alleged that the PI
    had copied nearly a n entire paragraph from a published review article2 into his
    proposal.
        OIG compared the text of the proposal and the article. OIG identified a
    paragraph in the proposed text comprised of approximately six non-sequential
    sentences copied from the article that had not been distinguished from the
    proposal's other text or cited to the article. All the copied text appeared as general
    background material and it did not appear to contain any ideas that were necessary
    to his proposed work. When OIG contacted the PI to ask for his explanation, he
    said that he did not make use of any of the ideas in the article in proposing his
*   experiments. He said that he did use some text from the review article to indicate
    that the field was active. He said that not putting the sentences in quotation marks
    was an error on his part. The PI said his writing skills were perhaps not as good as
    other PIS because English was not his first language (as commented on by one of
    the reviewers as well), and he was not aware of the correct way to cite others' work.
       Although there was some duplicated text, given the small amount, the nature of
    the PI's use of that text, and the PI's difficulty with writing English, OIG
    determined that the PI's use of the copied text was a deviation fiom the community
    standards, but did not rise to the level of a serious deviation. OIG decided that, in
                                                                                                           -
    this instance, it would be more appropriate to ask the PI to correct NSF's record by
    submitting a corrected paragraph to the NSF program to replace the original
    paragraph in his declined proposal.
        The PI provided a corrected paragraph to the NSF program that contained a
    citation to the source document and placed quotation marks around the text from
    the article. He clearly identified that the material in the paragraph was not his
    own, and what the source of the text was. OIG verified with the NSF program that
    the corrected material was placed in the jacket.3
        This inquiry is closed and no further action will be taken on this case.
    cc: Legal, AIG-Oversight, IG



        11               was entitleJ      "'                                                and
                                    >-..    -    &-   .   a


                                                              J
                                                                    -   .- .   The PI
                                                                                   . was
                                                                                      . -.
                                                                                               t   professor
        27                                                                                           We
    refer to this publication as "the article."
        3
                                            -.                                                .in the
                                                         received the corrected paragraph from the PI
    and ensured that it was placed in the proposal jacket.


                                                                  Pg. 1of 1                        M97-23
